NO.

IN THE SUPREME COURT OF THE UNITED STATES

RENALDO DEMARQUIS METCALF,

Petitioner,
v.

UNITED STATES OF AMERICA,

Respondent.

MOTION TO PROCEED IN FORMA PAUPERIS

The Petitioner, by his undersigned counsel, requests leave to file a Petition for Writ of
Certiorari without prepayment of costs and to proceed in forma pauperis pursuant to Rule 39 of
the Supreme Court Rules and 18 U.S.C. ยง 3006A(d)(6). The Federal Public Defender was
appointed counsel for Petitioner by the United States Court of Appeals for the Fourth Circuit
pursuant to the Criminal Justice Act of 1964. No affidavit is attached inasmuch as the United States
Court of Appeals appointed counsel for Petitioner under the Criminal Justice Act of 1964.

Respectfully submitted, this the 17" day of February, 2021.

LOUIS C. ALLEN III
Federal Public Defender

A= Whe ta

JOHN A. DUBERSTEIN

Assistant Federal Public Defender
North Carolina State Bar No. 36730
301 N. Elm Street, Suite 410
Greensboro, NC 27401

(336) 333-5455
